HHS/OIG, Audit -"Audit of Illinois' Medicaid Payments for Skilled Professional
Medical Personnel for the Period October 1, 2003 Through September 30, 2004,"(A-05-05-00051)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Illinois' Medicaid Payments for
Skilled Professional Medical Personnel for the Period October 1, 2003 Through September 30,
2004," (A-05-05-00051)
June 13, 2006
Complete
Text of Report is available in PDF format (381 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of the audit was to determine whether the Illinois Department of Healthcare
and Family Services (State agency) properly claimed Medicaid funding at the 75 percent enhanced
Federal funding rate for skilled professional medical personnel for the period October 1,
2003, through September 30, 2004.  The State agency improperly claimed enhanced reimbursement
for skilled professional medical personnel costs and was overpaid $62,648 in Federal funds
for wage and travel expenses for 56 contractors that were not State agency employees.  In
addition, the State agency improperly classified and claimed $9,460,819 ($2,365,205 Federal
share) in school based administrative costs as skilled professional medical personnel.  Although
CMS disallowed enhanced reimbursement for these claims, the State agency did not reclassify
and reduce its claim for skilled professional medical personnel.  We recommended that
the State agency:  (1) refund $62,648 for the overpayments; (2) develop and implement
procedures to ensure only qualifying individuals are claimed as skilled professional medical
personnel; and (3) reclassify the $9,460,819 in school based administrative costs inappropriately
claimed for enhanced reimbursement as skilled professional medical personnel and appropriately
charge those costs as other Medicaid administrative costs.  Illinois officials agreed
to the first two recommendations.  The State did not agree with our recommendation to
reclassify the $9,460,819 in school based administrative costs.